U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




         2010 Census:
       Quarterly Report
          to Congress,
        February 2010

                 Final Report No. OIG-19791-3




            For Public Release
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230



February 16,2010


The Honorable Alan B. Mollohan                        The Honorable Frank R. Wolf
Chairman                                              Ranking Member
Subcommittee on Commerce, Justice,                    Subcommittee on Commerce, Justice,
 Science, and Related Agencies                         Science, and Related Agencies
Committee on Appropriations                           Committee on Appropriations
U.S. House of Representatives                         U.S. House of Representatives
Washington, DC 20515                                  Washington, DC 20515


Dear Mr. Chairman and Mr. Wolf:

This letter transmits our third quarterly report to Congress in response to the explanatory
statement accompanying the Supplemental Appropriations Act of 2008 requiring the Office of
Inspector General to repOli on a quarterly basis the status of Census's 2010 operations. This
report provides an update on the schedule, cost, and risk management activities of the 2010
Census for the quarter ending December 31, 2009.

During this period, we report that the Census Bureau experienced delays with development and
testing of its Paper-based Operations Control System (PBOCS). This system is critical for field
operations and requires swift corrective action to minimize adverse impacts on these operations.
With respect to cost, we report cost inefficiencies related to address canvassing and note that
Census should implement internal controls and carefully monitor similar costs during upcoming
field operations. Finally, we found that the Census Bureau has finalized 4 of 13 program-level
contingency plans and continues work on reviewing the remaining ones.

We will issue formal recommendations in a separate repOli to the bureau on actions that should
be taken to address issues involving PBOCS performance and development, as well as
development of internal controls to help contain field operations costs.

We have sent identical letters to the Chairwoman and the Ranking Member of the Senate
Subcommittee on Commerce, Justice, Science and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,




Todd 1. Zinser


Enclosure
cc:   Representative Patrick J. Kennedy
      Representative Chaka Fattah
      Representative Adam Schiff
      Representative Michael Honda
      Representative C.A. "Dutch" Ruppersberger
      Representative Peter J. Visclosky
      Representative Jose E. Serrano
      Representative David R. Obey, Ex Officio
      Representative John Abney Culberson
      Representative Robert B. Aderholt
      Representative Jo Bonner
      Representative Jerry Lewis, Ex Officio
                                                        UNITED STATES DEPARTMENT OF COMMERCE
                                                        The Inspector General
                                                        Washington, D.C. 20230



February 16,2010


The Honorable Barbara A. Mikulski                     The Honorable Richard C. Shelby
Chairwoman                                            Ranking Member
Subcommittee on Commerce, Justice,                    Subcommittee on Commerce, Justice,
  Science and Related Agencies                          Science and Related Agencies
Committee on Appropriations                           Committee on Appropriations
United States Senate                                  United States Senate
Washington, D.C. 20510                                Washington, D.C. 20510


Dear Madam Chairwoman and Senator Shelby:

This letter transmits our third quarterly report to Congress in response to the explanatory
statement accompanying the Supplemental Appropriations Act of 2008 requiring the Office of
Inspector General to report on a quarterly basis the status of Census's 2010 operations. This
report provides an update on the schedule, cost, and risk management activities of the 2010
Census for the quarter ending December 31, 2009.

During this period, we report that the Census Bureau experienced delays with development and
testing of its Paper-based Operations Control System (PBOCS). This system is critical for field
operations and requires swift corrective action to minimize adverse impacts on these operations.
With respect to cost, we report cost inefficiencies related to address canvassing and note that
Census should implement internal controls and carefully monitor similar costs during upcoming
field operations. Finally, we found that the Census Bureau has finalized 4 of 13 program-level
contingency plans and continues work on reviewing the remaining ones.

We will issue formal recommendations in a separate rep01i to the bureau on actions that should
be taken to address issues involving PBOCS performance and development, as well as
development of internal controls to help contain field operations costs.

We have sent identical letters to the Chairman and the Ranking Member of the Senate
Subcommittee on Commerce, Justice, Science and Related Agencies.

If you have any questions, or if we can be of further assistance, please do not hesitate to contact
me at (202) 482-4661.

Sincerely,




Todd 1. Zinser


Enclosure
cc:   Senator Daniel Inouye
      Senator Patrick Leahy
      Senator Herb Kohl
      Senator Byron Dorgan
      Senator Dianne Feinstein
      Senator Jack Reed
      Senator Frank Lautenberg
      Senator Ben Nelson
      Senator Mark Pryor
      Senator Judd Gregg
      Senator Mitch McConnell
      Senator Kay Bailey Hutchison
      Senator Lamar Alexander
      Senator George Voinovich
      Senator Lisa Murkowski
                                  Report In Brief
                                        U.S. Department of Commerce Office of Inspector General


Why We Did This Review              2010 Census: Quarterly Report to Congress
The Supplemental Appropria-         February 2010 (OIG–19791–3)
tions Act of 2008 gave the Cen-
sus Bureau an additional $210
million to help cover spiraling
2010 decennial costs stemming
                                    What We Found
from the bureau’s problematic
efforts to automate major field     About 9,400 key operations and activities make up the Census 2010 program. With
operations, major flaws in its      such a complex, time-sensitive undertaking, it remains vitally important that the Cen-
cost-estimating methods, and        sus Bureau operate efficiently and within budget. In our last quarterly report, we noted
other issues. The Act’s explana-    several risks to the decennial, including scheduling delays, cost overruns, and compli-
tory statement required the         cations associated with the development of the paper-based operations control system
bureau to submit to Congress        (PBOCS).
a detailed plan and timeline
of decennial milestones and         During this reporting period, we observed the following:
expenditures, as well as a
                                    •    PBOCS development and testing have continued to suffer setbacks that will reduce
quantitative assessment of as-
sociated program risks, within
                                         functionality and require the development of workarounds to complete the NRFU
30 days.                                 operation. PBOCS testing is revealing more and more critical defects as it pro-
                                         gresses. Schedule delays have hindered the development of training manuals and
OIG must provide quar-
                                         technical support guides.
terly reports on the bureau’s
progress against this plan.         •    The bureau conducted two operational load tests of the computer networks support-
This report’s objective was to           ing decennial operations. The tests showed that the networks and devices were able
provide an update of activities          to successfully handle peak loads, but revealed PBOCS and other IT performance
and operations, identify budget          problems.
and spending issues, and ex-
amine risks to the 2010 Census      •    While Census stayed within its budget during our review period, spending among
program.                                 local Census offices (LCOs) remains a concern. The Address Canvassing operation
                                         was 25 percent over budget, and our analysis of travel costs for the operation found
Background                               wide disparities in wages and mileage reimbursement in some of the LCOs.
Since first conducted in 1790,      •    Census has issued a revised cost estimate of $2.33 billion for the NRFU operation.
the constitutionally mandated            Any reductions that may be achieved in NRFU are likely to be partially offset by an
decennial census field activities        estimated increase of $137 million for the Vacant/Delete Check operation.
have largely been paper based.
The 2010 Census plan included       •    Census’s Risk Review Board (RRB) has taken a proactive role in overseeing risk
significant expansion of automa-         management activities. The RRB has initiated a monthly review of the 25 identi-
tion, using handheld computers           fied risks on the bureau’s risk register. The RRB is reviewing contingency plans for
to verify addresses (address can-        13 of the risks. To date, the RRB has finalized four plans. These plans appear to be
vassing), conduct in-person sur-         adequate to cover the actions Census would need to take should the risks material-
veys with households that did            ize.
not return their questionnaires
(nonresponse follow-up), and        This report does not provide recommendations. We will forward the Census Bureau a
collect data from a nationwide      separate document recommending that the following actions be taken:
sample to evaluate the accuracy
of the decennial count (coverage    •    senior executives with the authority to set priorities—such as reallocating resources
measurement).                            to where they are most needed, resolving conflicting priorities, and making major
                                         changes to the decennial schedule or plan—closely monitor PBOCS activities and
Nonresponse Follow-up (NRFU)
is the most expensive and
                                         act to expeditiously reduce operational risk;
labor-intensive operation of the    •    streamline development and testing by further reducing PBOCS capabilities to the
decennial census. Increasing             essentials needed for the most important enumeration operations;
costs and automation problems
prompted the bureau’s deci-         •    focus on developing standardized procedural workarounds for PBOCS capabilities
sions to abandon the handheld            that cannot be implemented to support operations; and
computers for NRFU and cover-
                                    •    enhance technical support staff and procedures to expeditiously resolve problems in
age measurement operations in
favor of paper.
                                         the field.
                      OIG Quarterly Report to Congress, February 2010


                                                                 Contents
Introduction ..................................................................................................................................... 1
Chapter 1: Update on the 2010 Census Schedule ........................................................................... 2
   PBOCS Development Delays Require Census to Take Swift Remedial Action .......................... 2
   Recent Operational Load Tests Indicated Adequate Network Capacity but Revealed PBOCS
   Performance Problems ............................................................................................................... 5
Chapter 2: Update on 2010 Census Costs ....................................................................................... 8
   Census Spending During This Quarter Has Been Under Budget ............................................... 8
   OIG Analysis of Address Canvassing Budget Overruns Revealed Wide
   Disparities in Spending Among Local Census Offices ............................................................... 9
   Details of Census’s Revised NRFU Cost Estimate Are Nearly Complete ................................ 11
   OIG Analysis of Address Canvassing Travel Costs Reveals Some Inefficiencies .................... 12
   Census Plans to Spend Most of Its Recovery Act Funding During
   Field Operations ....................................................................................................................... 13
Chapter 3: Update to Census’s Risk Management Activities ....................................................... 14
   Risk Review Board Initiates Monthly Review and Updates the Risk Register .......................... 14
   Finalized Contingency Plans Appear to Address Program Risks ............................................ 17
Appendix A: Objectives, Scope, and Methodology..................................................................... 20
Appendix B: Office of Inspector General 2010 Decennial Census Oversight Plan .................... 21
                OIG Quarterly Report to Congress, February 2010



                                             Introduction
The Supplemental Appropriations Act of 2008, enacted June 30, 2008, gave the U.S. Census
Bureau an additional $210 million to help cover spiraling 2010 Census costs. The Act’s
explanatory statement required Census to formulate a detailed plan encompassing a timeline of
decennial activities, cost estimates, and risk management activities. This information and
subsequent updates of Census’s progress are the measures we review when preparing our
quarterly reports.

Our first quarterly report, issued in August 2009, highlighted limitations in the Census Bureau’s
ability to oversee the systems and information for tracking its schedule, cost, and risk
management activities during the 2010 Census. We subsequently issued a separate report to
Census with recommendations that we believe would help improve the program management of
both the current and 2020 Censuses.1 Our second quarterly report, issued in December 2009,
provided an update on the 2010 Census schedule, cost, and risk management activities for the
period June–September 2009, but included more recent information when available.2

This quarterly report covers 2010 Census activities from October through December 2009 and
includes more current information when available. As with the previous quarterly, this report has
three areas of focus: chapter 1, which highlights the development and testing of the bureau’s
paper-based operations control system (PBOCS); chapter 2, which analyzes Address Canvassing
cost overruns, an update on nonresponse follow-up (NRFU) budget planning, and planned
spending of American Recovery and Reinvestment Act of 2009 funds for the 2010 Census; and
chapter 3, which updates program-level risks to the decennial census and the development of
risk-based contingency plans. See appendix A for a complete outline of our objectives, scope,
and methodology. Appendix B contains the Office of Inspector General’s (OIG) plan for
monitoring and observing 2010 Census operations.




1
  For specific information on our findings and recommendations, see 2010 Census: First Quarterly Report to
Congress, OIG-19791-1, Department of Commerce, Office of Inspector General, August 2009; and
Recommendations from 2010 Census: First Quarterly Report to Congress, OIG-19791-1. OIG reports are available
on our Web site, www.oig.doc.gov.
2
  2010 Census: Quarterly Report to Congress, December 2009, OIG-19791-2.


                                                      1
               OIG Quarterly Report to Congress, February 2010



                                      Chapter 1:
                          Update on the 2010 Census Schedule
The Census Bureau maintains a schedule of about 9,400 program- and project-level activities to
manage the 44 operations that make up the 2010 Census. Project-level teams monitor their own
activity schedules while Decennial Management Division staff manage the integration of all
scheduled activities and operations, and any changes to those activities. The bureau’s Group
Quarters Validation operation finished in late October and all 494 local Census offices (LCOs)
were deployed ahead of schedule, as we reported in our previous quarterly report. In addition,
Census staff continued developing PBOCS, which is critical to managing the 10 major
enumeration operations to be conducted in 2010.

In our last review, we noted that both the bureau and OIG regard this system as a major risk to
decennial operations, given the lack of time available for its development and testing. During this
period, we assessed the progress of PBOCS development and found a number of serious
problems: staff is working at capacity yet continues to fall behind schedule; critical software
errors are increasing; system performance is still lagging; and testing continues to be
compressed, risking the system’s capabilities and performance in the field.


PBOCS Development Delays Require Census to Take Swift Remedial Action

In October 2009, the Census Bureau identified PBOCS as the system most at risk of not being
completed in time for decennial field operations. PBOCS is used to manage data collection and
quality control for 10 field enumeration operations, including the large door-to-door NRFU.
Specifically, PBOCS is used to print materials for enumerators to take into the field, allocate
assignments to enumerators, check materials out to the field and back into the office, manage
individual cases, and provide management reports. The biggest challenge for Census concerning
PBOCS is the short timeframe remaining to develop and deploy the system. Start dates for
Census’s field operations are fixed, and if PBOCS is not ready or if additional actions are not
taken, the operation could be adversely affected, resulting in increased costs and reduced
accuracy of the population count.

During this quarterly review period, we continued to monitor PBOCS. We met with PBOCS
managers and technical leads; spoke with a subject-matter expert on the PBOCS steering
committee; and reviewed management reports, release notes, independent assessments of the
project, and other project documentation. We found that system development and testing have
fallen substantially behind schedule, resulting in less functionality and an increased likelihood of
field staff's encountering technical problems during operations. Putting further strain on the
project is that development staff already working to capacity must now contend with resolving
any problems that surface during operations.




                                                 2
               OIG Quarterly Report to Congress, February 2010

PBOCS development started late in the decennial cycle, partially due to a change in plans from
using handheld computers to the use of paper for collecting data. An independent assessment of
the system, requested by Census, found that developing PBOCS would take two to three times
longer than the time available due to its size, adding pressure to the bureau. This lack of time has
proved to be the biggest obstacle to the system’s development. In November 2009, Census raised
the risk level for PBOCS from medium to high due to a significant delay in the already
inadequate development schedule. According to management reports, the project continues to lag
behind schedule.

PBOCS Deployment. PBOCS is being deployed in phases; the system is usually needed several
weeks before an actual operation starts so that materials can be printed (assignments lists, data
collection forms, and labels) and for training of staff. The first deployment, on January 19, was
for the Remote Alaska enumeration, Group Quarters Advance Visit, and Update/Leave
operations. Remote Alaska and Group Quarters Advance Visit have started. PBOCS will be
deployed on March 22 for NRFU, which starts May 1. Table 1 presents deployment and field
operation dates. The shaded areas denote operations where PBOCS has been deployed.


       Table 1. PBOCS Deployment and Field Operations Schedule,
                       as of February 16, 2010
                                                                Operation        Operation
    Deployment      Operation                                   Start            End
                    Remote Alaska Enumeration                   January 25       April 30
    January 19      Group Quarters Advance Visit                February 1       March 19
                    Update/Leave                                March 1          March 26
                    Remote Update/Enumerate                     March 22         May 29
    February 22     Update/Enumerate                            March 22         May 29
                    Enumeration of Transitory Locations         March 19         April 12
    March 1         Group Quarters Enumeration                  April 1          May 21
    March 22        Nonresponse Follow-up                       May 1            July 10
    June 4          Vacant Delete Check                         July 24          August 25
    July 13         Field Verification                          August 6         September 3
    Source: U.S. Census Bureau data



Development and Testing. PBOCS is being developed using a methodology in which small
increments of functionality are designed, coded, and tested in short cycles typically lasting 3
weeks. However, because of the tight schedule Census and the PBOCS contractor shortened the
cycle to about 1 week, with the expectation that more functionality could be tested and found
ready to deploy. However, according to internal project metrics, this shortened cycle may be
introducing new errors into software code that has already been tested.



                                                 3
               OIG Quarterly Report to Congress, February 2010

PBOCS increments are put through three types of tests—alpha, beta, and user. Initially, code is
tested internally by developers in the alpha computing environment. Then the code is promoted
to an operational-like beta environment (in this case, a replica of an LCO) for independent
testing. This beta environment is also available for user testing. User tests have been informally
scheduled and mostly carried out by headquarters staff rather than regional staff, who are the
primary users of PBOCS. According to the project manager, user testing will be more formally
arranged for subsequent PBOCS deployments.

PBOCS was also part of the Decennial Application Load Test (DALT), a performance test of the
networks connecting the LCOs to computers at the bureau’s computer center. It also tested
whether those computers had adequate computing power. Although the test showed that
networks could support the expected peak loads during NRFU, the test also revealed significant
problems with the performance of the PBOCS computers, which is limiting the number of staff
who can use the system at the same time. Performance is a top concern of PBOCS management
and the Census chief information officer (CIO). The CIO has redirected senior Census engineers
and brought in experts from computer vendors to resolve these problems.

Scheduling and Staffing. Although development staff have been deployed as much as
possible—working two shifts per day, extended hours, weekends and holidays—the schedule to
build new functionality has not appreciably improved, and testing of already developed
functionality continues to fall farther behind. At the same time, critical software defects have
mounted (see table 2). Improvements in the schedule and the pace of defect resolution seem
unlikely because staff availability will become an even greater issue as operations ramp up. Staff
developing and testing PBOCS will be drawn away to repair problems encountered by field staff.
PBOCS management stated that increasing the development staff was not a viable option
because current staff are not available to train new team members.


            Table 2. PBOCS Schedule Delays and Critical Defects
                                                 12/15/2009     1/5/2010     1/12/2010
            Development (days behind)                     20           19            19
            Testing (days behind)                         19           18            21
            Critical Defects                              26           76            80
            Source: U.S. Census Bureau



Functionality. Schedule delays coupled with fixed deadlines have forced stakeholders to accept
that there is not enough time to implement all PBOCS capabilities. For example, one limitation
under consideration is that managers at local Census offices may not be able to use PBOCS to
help bring in additional enumerators to work an assignment area during NRFU; instead, paper
records may be needed to track these split assignments. This limitation would become
problematic when managing thousands of enumerators working in thousands of assignment areas
in 494 LCOs across the country. Another major consequence of the tight schedule is that 50



                                                 4
               OIG Quarterly Report to Congress, February 2010

management reports from a total of 435 had to be dropped from the original PBOCS
specification.

The first PBOCS deployment also had limitations. Thirty management reports that are part of the
deployment cannot be generated properly. Eleven of these reports are needed for the ongoing
Remote Alaska and Group Quarters Advance Visit field operations. Also, the bureau reported in
mid-January that testing of PBOCS was still incomplete. The number of problems field staff will
encounter is unknown, but a shortfall in testing portends potentially significant technical
problems in the field.

Training and Technical Support. Software development delays are having an impact on the
preparation of training materials. The bureau is developing computer-based training and how-to
guides to assist LCO managers and clerks on the use of PBOCS and workaround procedures for
missing system functions. However, PBOCS management reported in mid-January that
development of these training materials was 31 days behind schedule—more delayed than the
testing. Contributing to this delay is uncertainty about which functions will be available in
subsequent PBOCS releases.

Technical support for field operations is provided by the Decennial Operations Technical
Support center. The center’s staff will be augmented by eight PBOCS specialists working two
shifts (four per shift) to handle help desk calls and coordinate PBOCS software patches.
However, according to PBOCS management in mid-January, these specialists do not have full
technical knowledge of PBOCS or a consistent understanding of the problem-resolution process
because knowledgeable staff members, who were working on development, were unable to
provide training.

Now that PBOCS is being deployed and is in use, it becomes more complicated to maintain
consistency of the development, testing, and operational environments. As technical problems
are resolved, patched versions of PBOCS will need to be deployed to the field. Changes to the
operational version of PBOCS will have to be reflected in development and test versions.
PBOCS management has reported that synchronizing these environments is becoming more of a
challenge.


Recent Operational Load Tests Indicated Adequate Network Capacity but Revealed
PBOCS Performance Problems

In October 2009, the Census Bureau announced plans to simulate a full operational load on the
IT infrastructure supporting decennial operations. Two load tests were conducted in December
2009 to determine the network and computing capacity needed during peak operations. The first
test revealed numerous performance and functional problems. Although many of these problems
were alleviated for the second test, performance issues persist. Discovering problems so close to
system deployment has made performance an urgent concern. In response, the Census CIO’s
office deployed senior engineers to assist in resolving the remaining issues.




                                                5
                 OIG Quarterly Report to Congress, February 2010

The purpose of DALT was to determine the network capacity needed to carry transactions over
the Field Data Collection Automation (FDCA) network from the 494 LCOs to computers
(application servers) within the bureau’s network that process those transactions, and the
computing power needed by those computers (see figure 1 for a diagram of the tests).
Applications such as PBOCS and the Decennial Application Payroll Processing System
(DAPPS) were included in these load tests.3 To simulate the heavy workloads expected during
NRFU, 8,000 interactive users at the LCOs entered transactions into the infrastructure by
following scripted scenarios; this load was supplemented by automated scripts generating
additional transactions.


           Figure 1. Diagram of DALT Components Tested and
                             Test Data Flow




    Source: OIG analysis of U.S. Census information

The first load test brought important problems to the attention of bureau managers and engineers.
The DAPPS application was unavailable for the first test because of a software configuration
problem. For the other applications, the test identified functions that did not work or experienced
performance slowdowns and limitations, especially with logging on to the applications. The
FDCA and Census network connections and devices performed well during the test. However,
because DAPPS activity was not included, the tests could only simulate about half of the
expected peak load.

Before the second load test, Census engineers corrected issues identified during the first test.
Tests of all the applications, including DAPPS, were completed. Performance and functionality
for PBOCS were improved. The FDCA and Census network connections and devices
3
 The Decennial Application Payroll Processing System (DAPPS) is the administrative system that supports
employment applicant processing, recruiting reports, and personnel and payroll processing.


                                                       6
               OIG Quarterly Report to Congress, February 2010

successfully handled the peak load with capacity to spare. However, the test revealed significant
problems with the PBOCS application servers as well as with DAPPS, which had four times
more problems than PBOCS. The Census CIO has redirected the bureau’s senior engineers and
brought in vendor expertise to resolve these performance problems.

Conclusion. PBOCS and other essential IT elements are proceeding under very difficult
conditions. NRFU deployment is less than 5 weeks away, software errors are increasing, and
system performance is not meeting operational needs. The Census Bureau Director and staff are
aware of the IT problems and are attempting to take swift corrective action. However, because
time is at a premium, Census must realign PBOCS development and testing efforts, placing
greater emphasis on minimizing the impact of PBOCS limitations during operations.

Accordingly, in a separate memorandum to the Census Bureau, we are recommending that the
Director ensure that the following actions are taken:

•   senior executives with the authority to set priorities—such as reallocating resources to where
    they are most needed, resolving conflicting priorities, and making major changes to the
    decennial schedule or plan—closely monitor PBOCS activities, and act to expeditiously
    reduce operational risk;
•   streamline development and testing by further reducing PBOCS capabilities to the essentials
    needed for the most important enumeration operations;
•   focus on developing standardized procedural workarounds for PBOCS capabilities that
    cannot be implemented to support operations; and
•   enhance technical support staff and procedures to expeditiously resolve problems in the field.

We plan to continue monitoring PBOCS and DAPPS performance and functionality, along with
contingencies put into place to compensate for any shortfalls.




                                                7
                 OIG Quarterly Report to Congress, February 2010



                                           Chapter 2:
                                   Update on 2010 Census Costs
As stated in our last quarterly report, the 2010 Census is currently estimated to cost
approximately $14.7 billion, reflecting an increase of $3.2 billion over the last 2 years. For this
fiscal year, spending on the 2010 Census will total $7.4 billion. During October–December 2009,
the bureau spent less money than it had budgeted due to salary costs that were not incurred and
obligations that were delayed. Our analysis of the Address Canvassing operation’s cost overrun
revealed wide disparities in terms of spending among early local Census offices (ELCOs).4
These wide variances between budgeted and actual costs do not generate confidence in the
Census Bureau’s budgeting and cost containment processes for large-scale field operations. With
respect to budget planning, the bureau has revised its budget estimate for NRFU and expects to
finalize the details by the end of this month. Also, our analysis of travel costs for Address
Canvassing revealed a number of inefficiencies that Census managers should be aware of for
future operations. Finally, the bureau plans to spend most of its Recovery Act funding during the
first half of 2010 as it carries out the majority of its early enumeration operations.


Census Spending During This Quarter Has Been Under Budget

The Census Bureau monitors the status of budget and accounting for the cost of the 2010
decennial census on a monthly basis. The results are contained in several documents produced
monthly, including status reports to the Office of Management and Budget, internal financial
management reports, and internal cost variance analyses. Cumulative planned spending and
actual expenditures are presented monthly and over the past year have included the following
budget frameworks:

•   Program development and management
•   Content, questionnaires, and products
•   Field data collection and support systems
•   Automated data collection systems and data capture
•   Census design, methodology, and evaluation
•   Census test and Dress Rehearsal implementation
•   Contingency

Individual categories may be over or under budget for the month, which combined show the
overall budget variance for the 2010 Census. These major areas, in turn, contain nearly 300
individual projects, each with a project manager and numerous cost categories.


4
  In late 2008 and early 2009, 151 local Census offices were deployed early, ahead of 2010 enumeration operations,
to conduct Address Canvassing and Group Quarters Validation. These offices are part of the 494 local Census
offices to be used in 2010.


                                                        8
               OIG Quarterly Report to Congress, February 2010

Census spent approximately 15 percent less than it had planned for the 3-month period ending
December 2009 (see table 3). Monthly status reports for the months of October and November
show that savings were realized in nearly all budget frameworks as a result of salaries that were
not incurred, obligations that were delayed, and delays in hiring LCO staff, to name a few
reasons. However, it is unlikely that Census will experience this level of cost containment in the
coming months as operations commence and obligations are actualized. We will monitor
spending and expenditures for the month of December (to be reported in the February monthly
status report) to assess whether delayed obligations have any impact on program activities during
subsequent months.


                   Table 3. Comparison of 2010 Census
               Cumulative Planned Spending and Actual Costs
                         for FY 2010 ($ in millions)
                             Cumulative Cumulative                        Percentage
                               Planned     Actual        Cumulative            Under
               Month          Spending   Spending          Variance           Budget
               October          $ 465.2    $459.5             $ 5.7              1%
                                 a
               November           923.6     825.2              98.4               11
                                 a
               December           1,164     988.8             175.2               15
               a
                As revised in November and December 2009, respectively.
               Source: U.S. Census Bureau


OIG Analysis of Address Canvassing Budget Overruns Revealed Wide Disparities in
Spending Among Local Census Offices

Census Bureau headquarters formulated a total budget of $356 million to conduct the Address
Canvassing operation in 2009. This amount was allocated among the 151 ELCOs nationwide
based on the type of area, such as urban or rural, covered by each ELCO. We reported in
December 2009 that the Address Canvassing operation overspent its $356-million budget by $88
million (25 percent). We analyzed Census data to determine the extent of overspending at the
ELCO level and found wide disparities among offices. The two major cost drivers of the
operation were wages and reimbursement for miles driven by temporary employees (listers) to
assignment areas. For production, 49 of 151 ELCOs (32 percent) exceeded their wage budgets
and 75 (50 percent) exceeded their mileage budgets (see figure 2). For quality control, 124 of
151 ELCOs (82 percent) exceeded both their wage and mileage budgets (see figure 3).




                                                9
               OIG Quarterly Report to Congress, February 2010

Figure 2: Percentage of Wages and Travel Budgets Spent
   by 151 ELCOs for Address Canvassing Production

                           80
                           70
         Number of ELCOs

                           60
                           50
                           40
                           30
                           20
                           10
                            0




                                         Range (%)

                                 Wages     Mileage


  Source: OIG analysis of U.S. Census Bureau data



Figure 3: Percentage of Wages and Travel Budgets Spent
 by 151 ELCOs for Address Canvassing Quality Control


                           60

                           50
  Number of ELCOs




                           40

                           30

                           20

                           10

                           0



                                   Range (%)
                                 Wages   Mileage

  Source: OIG analysis of U.S. Census Bureau data



                                      10
               OIG Quarterly Report to Congress, February 2010

The ELCOs’ production wage costs were 45–186 percent of their budgets and for production
mileage they were less than one percent to 250 percent of their budgets. For the quality control
phase of the operation, ELCOs’ wage costs were 68–439 percent of their budgets and for mileage
were less than one percent to 878 percent of their budgets. These figures show that the Address
Canvassing budget estimate was inaccurate and expenditures varied greatly among ELCOs.

With the upcoming NRFU operation requiring three times the number of employees and offices
than were used during Address Canvassing, it is important that Census’s revised budget estimate
for this operation be reasonably accurate so that the final cost does not exceed the amount
budgeted, including its contingency fund (set at 15 percent above the operation’s current cost
estimate). In 2000, Census exceeded its budget of $1.2 billion for NRFU activities by
approximately $186 million—almost 15 percent. While a similar overrun during the 2010
Census would be covered by existing contingency funds, issues arising from PBOCS, as
discussed in chapter 1, could result in unexpected costs, which the bureau should monitor.


Details of Census’s Revised NRFU Cost Estimate Are Nearly Complete

In our last quarterly, we reported that Census planned to have a revised NRFU cost estimate by
mid-November 2009. The budget for the operation was projected at $2.74 billion with an
additional $411 million in contingency funds to cover any cost overruns. During our current
review period, Census budget staff, with the help of a consultant, conducted an analysis of the
NRFU budget estimate to determine whether the original estimate was sufficient for the
operation. By developing over 1,000 likely cost estimates using a number of factors, the bureau
reached what it considers a reasonable NRFU cost estimate of $2.33 billion. This figure is within
the analysis’s distribution of costs, which ranges from $1.94 billion to $2.83 billion. The range
was necessary because of uncertainty about two major cost drivers—mail response and worker
productivity. To these we would add the unknown impact on operations of a PBOCS with
reduced functionality and performance.

As part of this analysis, the bureau obtained savings by adjusting a number of known cost
drivers. For example, Census decided to maintain 2009 enumerator pay rates for 2010 operations
after assessing current economic conditions. This resulted in significant savings in the cost
estimate. To a lesser degree, the U.S. government’s recent change in its mileage reimbursement
rate for official travel—from 55 cents per mile to 50 cents per mile, effective January 1, 2010—
also helped reduce the overall NRFU cost estimate. The decrease in the NRFU estimate is
partially offset by a $137-million increase in the estimate for Vacant/Delete Check, which aims
to verify the status of addresses classified as vacant or nonexistent during NRFU. This operation
is forecast to cost almost 40 percent more than originally estimated because the projected
workload is expected to nearly double. Census Bureau staff informed us that it anticipates
finalizing the details of the new $2.33-billion NRFU budget estimate by the end of this month so
that LCOs can adjust their spending plans accordingly before the start of operations. We look
forward to receiving the final cost estimate, which we will assess during our next review period.




                                               11
                    OIG Quarterly Report to Congress, February 2010

OIG Analysis of Address Canvassing Travel Costs Reveals Some Inefficiencies

Census’s Address Canvassing operation took place between March 30 and July 10, 2009. During
that period, more than 100,000 Census listers traveled over 150 million miles, for which they
were reimbursed $83 million. In addition, employees were given one week’s worth of training
prior to performing fieldwork. Our analysis of the Census data showed some inefficiencies with
travel fund management and training that Census managers should be aware of in managing
2010 field operations. Specifically, employees (1) were reimbursed at a rate higher than was
allowed, (2) drove a relatively high number of miles per hour worked, and (3) were paid for
training but completed little or no work.

Mileage Reimbursement. The federal mileage reimbursement rate was set at 58.5 cents per mile
on August 1, 2008, and subsequently reduced to 55 cents on January 1, 2009. However, during
the period between January and July 2009, which encompassed the Address Canvassing
operation, some employees claimed nearly 3.9 million miles driven at the higher rate, resulting in
excess payments of approximately $136,000.

Ratio of Miles Driven per Hour to Hours Worked. Using bureau data, we calculated a ratio
for each employee of the number of miles driven per hour to the number of hours worked. To do
that, we determined the number of hours required by an employee to drive the number of miles
claimed while driving at a speed of 50 miles per hour (a relatively high speed). Then, we divided
that figure by the total number of hours the employee worked to give us a measure of time spent
driving during work hours.5 Despite this conservative estimate—assuming that employees drove
50 miles per hour at all times—we found that 604 employees spent the majority of their time
driving instead of conducting field work, and of those, 23 employees spent 100 percent or more
of their time driving. This suggests some over-reporting of actual mileage in travel claims.

While the number of employees with questionable reimbursements is very small compared with
the overall universe of 140,000 employees involved in this operation, the potential exists for this
problem to be compounded because upcoming field work operations will involve significantly
more temporary employees than did Address Canvassing. Census Bureau managers should
monitor mileage reimbursements carefully during upcoming enumeration operations, and verify
the validity of those reimbursement claims that appear excessive before they are paid.

Training Costs. During Address Canvassing, 15,263 employees received training but worked
for less than a single day or did not work at all. Of these employees, 10,235 did not work at all
but earned approximately $3.4 million for attending training. An additional 5,028 employees
completed training, at a cost of $2.2 million in wages, but worked for less than a single day.
Several reasons could have accounted for these results: employees could have voluntarily quit
after taking training or been deemed unsuitable to work, or there may not have been enough
work for them to perform.

Problems such as these can be expected for any major field operation. In relation to the final cost
of Address Canvassing, the cost of these inefficiencies was relatively low. However, as field

5
    Training hours were excluded from this calculation.


                                                          12
                                 OIG Quarterly Report to Congress, February 2010

operations take place during 2010 involving significantly more employees, Census should
develop effective internal controls over wage, travel, and training costs and ensure that managers
scrupulously follow these controls in future operations.


Census Plans to Spend Most of Its Recovery Act Funding During Field Operations

The American Recovery and Reinvestment Act of 2009 provided the Census Bureau with
$1 billion in funds to improve communications and outreach ($250 million) and to fund early
operations ($750 million) for the 2010 Census. At the start of FY 2010, Census had
$899.6 million available, having spent $100.4 million the previous fiscal year.6 Figure 4 shows
the level of monthly planned spending of Census’s remaining Recovery Act funds for the rest of
FY 2010, as well as obligations incurred between October and December 2009.

                           Figure 4. Recovery Act Funds—Planned and Actual Spending
                                               Obligations, FY 2010
                           250

                           200
     Amount (millions $)




                           150

                           100

                            50

                            0




                                                          Fiscal Year 2010

                                               Planned Spending       Obligations

    Source: U.S. Census Bureau financial management reports


According to its December 2009 financial management report, the bureau plans to spend nearly
$629 million of its remaining Recovery Act funds during the 4-month period between February
and May 2010. During this time, the bureau will be carrying out 8 of 10 field enumeration
operations involving thousands of enumerators based out of 494 LCOs nationwide. If current
spending plans are realized, the bureau will deplete its Recovery Act funding by the end of
August 2010.

6
 This amount represents one source of funding available to Census this fiscal year. The other sources are
appropriations for FY 2010 and from FY 2009.


                                                           13
               OIG Quarterly Report to Congress, February 2010



                                    Chapter 3:
                   Update to Census’s Risk Management Activities
As our previous quarterly reports have noted, the bureau’s risk management program represents
a significant improvement over the 2000 decennial, which lacked a formal risk management
process. Census’s Risk Review Board (RRB)—a subgroup of the Census Integration Group—
continues to oversee risk management activities and update its risk register. As of December 31,
2009, the register contained 25 program-level risks, with each risk rated high (likely), medium
(somewhat likely), or low (unlikely)—colored red, yellow, or green, respectively. As discussed
in our second quarterly for the period ending in September 2009, Census reported 8 high-, 14
medium-, and 3 low-level risks. For the period October–December 2009, the RRB did not make
changes to the overall risk ratings but did close one risk and add two others. Also during this
period, the board initiated monthly meetings to specifically review each risk rating on its register
to comply with the requirements of its risk management plan. Finally, the RRB has begun to
finalize and implement contingency plans for program risks to guide the bureau in addressing
problems that might arise should mitigation plans and activities fail. We reviewed four
contingency plans that have been completed to date, and they appear to be adequate and
informative.


Risk Review Board Initiates Monthly Review and Updates the Risk Register

The RRB held its first monthly meeting in December, in addition to its weekly meetings, to
review the status of each program-level risk. Census’s risk management plan requires the board
to oversee the risk ratings and verify whether individual risk managers are appropriately
monitoring and assessing their respective risks. However, the RRB had spent the majority of its
weekly meetings reviewing drafts of contingency plans. As a result, it was not reviewing the
status of risks on a monthly basis, as required by the risk management plan. Ultimately, the RRB
added a monthly meeting specifically dedicated to reviewing the status of risks. By having
monthly meetings, the board is ensuring an accurate register that informs Census’s staff and
stakeholders while also complying with the bureau’s risk management plan.

As a result of the board’s December meeting, the risk register remained relatively unchanged
from what we reported in our previous quarterly report, with the exception of one risk being
closed and the opening of two additional risks (see table 4).




                                                 14
               OIG Quarterly Report to Congress, February 2010

                  Table 4. Changes in Program-Level Risk Ratings,
                             September–December 2009
                                                                                         Sept.     Dec.
    Risk Grouping                               Risk Name
                                                                                         2009      2009
                      Contract management issues                                          High     High
                      Late design changes                                                 High     High
    Operations and    Address Canvassing and Group Quarters Validation
                                                                                         Medium   Closed
    Systems Risks     operational control system solutionsa
                      2010 operational and systems failures                               High     High
                      FDCA decentralization/reintegration                                 High     High
                      Housing unit duplicates and misses                                  High     High
                      Exception enumeration quality                                       Low      Low
     Quality Risks    Inaccurate Puerto Rico address list                                Medium   Medium
                      Data quality                                                       Medium   Medium
                      Person over-coverage and under-coverage                            Medium   Medium
                      IT security breach                                                 Medium   Medium
                      Loss of confidential data                                          Medium   Medium
Public Cooperation
                      Respondent cooperation                                             Medium   Medium
       Risks
                      Stakeholder support                                                Medium   Medium
                      Immigration policy backlash                                        Medium   Medium
    Major Disasters   Major disaster's effect on population                               High     High
       Affecting
      Population      Continued operations of critical infrastructure during disasters   Medium   Medium

                      Permanent staff retention                                           Low      Low
    Staffing Risks
                      Inability to recruit sufficient temporary workforce                 Low      Low
                      Uncertainty of assumptions in cost model                           Medium   Medium
     Budget Risks     Continuing resolution                                              Medium   Medium
                      Insufficient funding                                               Medium   Medium
       Schedule       Falling behind schedule on key milestones                           High     High
                      H1N1 influenza affecting regional Census centers and local
                                                                                                  Medium
                      Census office activitiesb,c
                      H1N1 influenza and similar contagious illnesses affecting
       Not Yet
                      non-regional Census centers and non-local Census office                     Medium
     Categorized
                      activitiesb
                      Litigation that threatens the delivery of apportionment and
                                                                                          High     High
                      redistricting data
a
  Risk has been closed.
b
  Risk had not yet been created in September.
c
  Risk decreased from high in October and November to medium in December.
Source: OIG analysis of U.S. Census Bureau data




                                                  15
                 OIG Quarterly Report to Congress, February 2010

Because the Address Canvassing and Group Quarters Validation operations ended in July and
October 2009, respectively, the risk “Address Canvassing and Group Quarters Validation
operational control system solutions” was closed and removed from the register. At the same
time, the board added two new risks: “H1N1 Influenza and Similar Contagious Illnesses
Affecting Non-Regional Census Centers and Non-Local Census Offices Activities” (non-
regional flu risk) and “H1N1 Influenza Affecting Regional Census Centers and Local Census
Office Activities” (regional flu risk) to mitigate the delay in decennial operations caused by
outbreaks of H1N1 influenza.

The regional flu risk had been a high-level risk in October and November because the board had
been unsure of its ramifications. However, after the risk manager presented a combined
mitigation and contingency plan at a weekly RRB meeting in December, the risk level was
downgraded to medium. This combined plan, which was developed expeditiously by staff,
addresses the potential effects of an H1N1 influenza outbreak on decennial operations resulting
from large numbers of staff at either centralized or field offices becoming ill, the staff's being
unwilling to contact respondents in high-infection areas, or respondents being reluctant to
cooperate with Census staff. Bureau staff continues to prepare the combined mitigation and
contingency plan for the non-regional flu risk.

Update on Contingency Plans. The RRB continues to spend the majority of its time at its
weekly meetings reviewing drafts of contingency plans for the 13 of 25 risks that it decided
needed plans. Table 5 shows the status of the 13 risks selected for contingencies.
 
                             Table 5. Status of Contingency Plans
                                                                         Contingency Plan Status
                                                     Risk Status             (January 2010)
                                                     (December        In       Conditionally
 Risk                                                   2009)      Progress      Approved     Finalized
 IT security breach                                      Medium                                  X
 Loss of confidential data                               Medium                                  X
 Continued operations of critical infrastructure
                                                         Medium                                  X
 during disasters
 H1N1 influenza affecting regional census centers
                                                         Medium                                  X
 and local census offices activities
 Uncertainty of assumptions in cost model                Medium                     X
 Continuing resolution                                   Medium                     X
 Insufficient funding                                    Medium                     X
 Housing unit duplicates and misses                       High                      X
 Falling behind schedule on key milestones                High                      X
 2010 operational and systems failures                    High                      X
 Person over-coverage and under-coverage                 Medium                     X
 Major disaster's effect on population                    High        X




                                                    16
               OIG Quarterly Report to Congress, February 2010

                                       Table 5 continued
                                                                        Contingency Plan Status
                                                    Risk Status             (January 2010)
                                                    (December        In       Conditionally
 Risk                                                  2009)      Progress      Approved     Finalized
 H1N1 influenza and similar contagious illnesses
 affecting non-regional census centers and non-         Medium       X
 local census office activities

 Source: OIG analysis of U.S. Census Bureau data



As of early January 2010, the RRB had finalized four contingency plans, including the regional
flu risk discussed above, and given preliminary approval for seven others. These contingency
plans will become effective upon a final RRB review once the board’s comments from a
previous review have been addressed.

As reported in the second quarterly, the RRB was deciding whether a contingency plan was
necessary for the risk “Litigation that Threatens the Delivery of Apportionment and Redistricting
Data.” This risk focuses on the possibility that the bureau might not deliver census data on
schedule because of possible lawsuits from stakeholders disputing Census’s data and contesting
the bureau’s procedures and methodology. The RRB concluded that a contingency plan would
not be practical because of the uncertainty over potential litigation and how to adequately
prepare for events that have not yet occurred and of uncertain magnitude. Instead, the board
decided to institute a rapid response process involving appropriate staff to respond to situations
as they develop.



Finalized Contingency Plans Appear to Address Program Risks

To date, the RRB has formulated contingency plans for the following four program-level risks:
(1) IT Security Breach, (2) Loss of Confidential Data, (3) Continued Operations of Critical
Infrastructure During Disasters, and (4) H1N1 Influenza Affecting Regional Census Centers and
Local Census Office Activities. A contingency plan will be triggered if its mitigation activities
are no longer effective, prompting the risk to materialize. When a trigger—such as a date or an
event—occurs, appropriate Census staff will assess impacts to the decennial schedule and
resources, take necessary actions to resolve problems, and monitor their effects on operations.
Overall, these finalized contingency plans appear to be reasonable for addressing the potential
risks if they occur.

The risk entitled “IT Security Breach” was developed on the premise that IT security breaches
have affected U.S. government systems in the past. The threat exists for unauthorized access to
the bureau’s secured facilities, networks, and systems during the 2010 Census. As a result, the
contingency plan focuses on ensuring that IT systems are secure from both automated and
physical attacks on Census networks and systems by complying with the National Institute of
Standards and Technology’s (NIST) security guidelines and following Department of


                                                   17
                  OIG Quarterly Report to Congress, February 2010

Commerce, Census Bureau, and NIST guidelines and security policies for physical access to
Census’s secured facilities and systems. If a network breach or unauthorized access occurs, the
plan requires the bureau to follow its own guidelines as well as the Department’s for reporting
and handling an incident. At the same time, the bureau will form a rapid response team
composed of the system owners, security office staff, and technical personnel familiar with the
affected systems to resolve any issues. Given the uncertainty over the extent of security breaches
(if they occur at all), this plan appears sufficient to handle situations as they arise.

The risk called “Loss of Confidential Data” addresses the possibility of losing confidential data,
including personally identifiable information and Title 13 data, during decennial operations.7
Census is responsible for safely gathering and moving mass volumes of confidential paper and
electronic data among hundreds of field offices, several data centers, and Census headquarters.
The bureau understands that the loss of confidential data may result in the loss of the public’s
confidence, which may lower the household response rate, increasing costs and delaying
operations. The contingency plan, which is similar to the one addressing IT security breaches,
involves following the bureau’s established processes and procedures for dealing with the loss of
data, working with the operational unit where the loss occurred, and, if necessary, creating a
rapid response team to recover or replace the data. In addition, the plan assigns responsibility to
the bureau’s public information office for formulating announcements addressing perceived or
actual loss of data and disseminating that information to the media. Given the bureau’s
responsibility for collecting, processing, and protecting its data, the plan includes processes and
procedures adequate for addressing the loss of confidential data.

Based on past censuses, natural disasters are likely to occur during decennial operations,
adversely affecting decennial operations in terms of cost and time. The risk “Continued
Operations of Critical Infrastructure During Disasters” focuses on identifying events that may
disrupt or prohibit access to the operation of decennial systems or network infrastructure.
Triggers for the contingency plan include detecting a security breach or network connectivity
issue with either the FDCA contractor’s or Census’s network. Contingencies include following
NIST/Commerce IT security guidelines, having the FDCA contractor institute a rapid response
team to deal with problems involving its network, and having bureau staff implement several
specific strategies to handle issues with the Census network. The plan appears to be reasonable
for handling a system or network infrastructure disruption.

The combined mitigation and contingency plan for the risk entitled “H1N1 Influenza Affecting
Regional Census Centers and Local Census Office Activities” was added in the event an H1N1
influenza outbreak affects field operations. An outbreak has the potential to sicken large numbers
of decennial field staff and households, inhibiting both groups from making contact with one
another in high-infection areas. Delays in decennial operations would likely increase costs. This
plan calls for a mix of mitigation and contingency activities for varying levels of employee
absenteeism—under 10 percent, between 10 and 15 percent, and between 15 and 25 percent.
These activities include encouraging employees to use provided hand sanitizers, limiting
unnecessary visitors to Census facilities, increasing the number of replacement training sessions

7
 Title 13 data refers to data collected by the U.S. Census Bureau for statistical purposes that is deemed confidential
and protected from unauthorized disclosure by 13 U.S.C. § 9(a).


                                                          18
               OIG Quarterly Report to Congress, February 2010

in highly affected areas to replace ill employees, and conducting telephone interviews in place of
face-to-face enumeration. While it is difficult to forecast the impact of an H1N1 influenza
outbreak during decennial operations, the plan provides strategies and actions that should help
diminish any negative effects.




                                                19
              OIG Quarterly Report to Congress, February 2010



                                     Appendix A:
                         Objectives, Scope, and Methodology
To satisfy the requirement for our third quarterly report on the 2010 Census, we have provided
an update on the status of 2010 Census activities with respect to schedule, cost, and risk
management activities. This information covers activities that occurred October–December 2009
and plans for activities moving forward.

To accomplish our objectives, we conducted a review of documentation, including monthly
status reports, activity schedules, program management reviews for 2010 Census contracts, and
updates to plans for Census-managed activities such as paper-based operations, financial
management and status of funds reports, internal budget variance reports, risk registers, and
mitigation and contingency plans for program-level risks. We also attended weekly schedule and
risk management meetings during this reporting period.

We conducted this review from November 2009 through February 2010, under the authorities of
the Inspector General Act of 1978, as amended; Departmental Organization Order 10-13, dated
August 31, 2006, as amended; and in accordance with the Quality Standards for Inspections
(revised January 2005) issued by the President’s Council on Integrity and Efficiency.




                                              20
               OIG Quarterly Report to Congress, February 2010


                                      Appendix B:
                              Office of Inspector General
                         2010 Decennial Census Oversight Plan
The Census Bureau has identified 44 decennial operations for 2010. These operations span
several years and entail providing support, establishing where to count, collecting and integrating
respondent information, providing results, measuring coverage, and performing analysis and
research for the 2020 Census. In FY 2010 we anticipate covering aspects of 20 of these
operations, including deploying substantial numbers of staff to observe eight Census field
operations. This work will also inform our oversight of the 2020 census.

OIG resources devoted to the 2010 Decennial Census over the coming year will involve almost
100 members of our staff at a given point in time. Details of our planned staffing deployment
over the course of the calendar year are provided in Figure 5, below. The variability of resource
deployment is related to the number and extent of the field operations conducted by Census.
During this period, OIG plans to expend approximately 35 full-time-equivalent employees at an
estimated cost of about $5.8 million for the review of the decennial census. OIG will oversee
Census Bureau field and headquarters management of operations, field enumeration activities,
information technology (IT) systems and the security of personally identifiable information, and
internal controls over payroll.

              Figure 5. OIG Census 2010 Oversight Staffing Plan




Field Activities
Our oversight of field activities will include deploying staff to selected local Census offices
nationwide to observe whether activities are being conducted in accordance with Census
procedures (for example, whether the Census questionnaire is being administered properly;



                                                 21
               OIG Quarterly Report to Congress, February 2010

whether map and address list updating is being completed correctly, where applicable; etc.) and
local Census office practices. We will notify the Census Bureau promptly of any problems
needing immediate attention. We will summarize our observations and findings in a final report,
to be completed in FY 2011. This capping report will provide our summary assessment of the
overall efficacy and efficiency of the 2010 Census enumeration. This and subsequent reports will
provide lessons learned to aid in planning for the 2020 Census.

In FY 2009 we observed Address Canvassing and Group Quarters Validation. During FY 2010
field operations we intend to have a presence in every enumeration activity. In our planning for
this major deployment of OIG personnel, we analyzed multiple data sources to ascertain the
areas in which the Census Bureau may face its greatest demographic and operational hurdles.
The following are six decennial operations that we will be observing:

•   Update/Leave: In areas in which many homes do not receive mail at a city-style address,
    enumerators canvass assignment areas to deliver a Census questionnaire to each housing unit.
    At the same time, they update the address list and maps. This method is also used in selected
    collection blocks within mailout/mailback areas, where mail delivery may be a problem, such
    as apartment buildings where mail is left in common areas.

•   Update/Enumerate: Enumerators canvass assignment areas to update residential addresses,
    including adding living quarters that were not included on original address listing pages,
    update Census Bureau maps, and complete a questionnaire for each housing unit. This occurs
    in communities with special enumeration needs and in which many housing units may not
    have house-number-and-street-name mailing addresses, similar to update/leave.

•   Enumeration of Transitory Locations: Enumerators visit transitory locations, such as
    campgrounds and hotels, to enumerate their residents.

•   Service-based Enumeration: This focused, 3-day enumeration provides an opportunity for
    people living on the street or in shelters to be included in the Census.

•   Nonresponse Follow-up (including Vacant/Delete Check): Enumerators visit addresses for
    which the Census Bureau had no questionnaire or telephone response. Enumerators collect
    information about the household residents as of April 1, 2010.

•   Coverage Follow-up: This telephone operation attempts to resolve erroneous enumerations
    and omissions.

Our field observations will focus on a judgmental sample of 34 of 151 early local Census offices
that supported Address Canvassing operations. These are split into smaller local Census offices
for enumeration activities; our sample equals 113 of 494 local Census offices. The areas
highlighted on the following map (Figure 6) indicate the boundaries of local Census offices
within our sample. OIG staff will observe Census operations in selected areas within those
locations.




                                               22
              OIG Quarterly Report to Congress, February 2010

               Figure 6. Local Census Office Boundaries within
                     Sample to be Observed by OIG Staff




To ensure nationwide coverage, we initially selected at least one Early Local Census Office per
Census region. Our selections were based on the bureau’s demographic measures of enumeration
difficulty, operational factors such as blocks with large populations, and significant
socioeconomic changes such as high foreclosure rates or high growth rates. Next, we identified a
smaller sample conveniently located near OIG offices. The remaining selections were included
to ensure adequate representation of population density and specific hard-to-count populations.
For example, we intentionally included the rural Mississippi Delta and the hurricane-affected
Galveston, Texas, areas. We balanced the sample by including several areas that were not
considered hard to count. A listing of the Early Local Census Offices in our sample follows:

   Anchorage, AK                     Chicago Far North, IL             Queens Northwest, NY
   Flagstaff, AZ                     Chicago Near South, IL            Syracuse, NY
   Phoenix Central, AZ               Frederick, MD                     Canton, OH
   Los Angeles Downtown, CA          Seat Pleasant, MD                 Oklahoma City, OK
   Stockton, CA                      Portland, ME                      Charleston, SC
   Lakewood, CO                      Detroit West, MI                  Rapid City, SD
   DC East, DC                       St. Louis City, MO                Houston Central, TX
   Miami East, FL                    Jackson, MS                       Salt Lake City, UT
   Sarasota, FL                      Meridian, MS                      Richmond, VA
   Atlanta South, GA                 Las Vegas, NV                     Tacoma, WA
   Honolulu, HI                      Bronx Southeast, NY               Eau Claire, WI
                                                                       Charleston, WV


                                              23
               OIG Quarterly Report to Congress, February 2010

Other Reviews

In addition to deploying staff to observe enumeration activities, we will be conducting reviews in
the following areas:

•   Evaluating and Monitoring Decennial Systems: We plan to evaluate key IT decennial
    systems for development and operational risks that may affect critical decennial operations
    and the accuracy of the population count. We will assess the paper-based operations control
    system and management workarounds required to address its anticipated shortcomings,
    starting with the Group Quarters Advanced Visit operation, as well as the Decennial
    Applicant, Personnel and Payroll System. Other systems that may be reviewed include the
    response processing system, the universe control and management system, and the Decennial
    Response Integration System.

•   Safeguarding Decennial Respondent Confidential Data: We will assess controls to protect
    the confidentiality, integrity, and availability of electronic decennial respondent information.

•   Census’s Ability to Detect/Respond to Cyber Attacks: We will evaluate the extent and
    effectiveness of Census’s monitoring of its decennial information systems for malicious
    activity.

•   2010 Enumeration Payroll and Progress Review: In our ongoing audit of Address
    Canvassing payroll for the decennial Census, we are verifying the accuracy and integrity of
    payroll processing, including a review of supervisory approval, overtime compliance, and
    time-and-expense reports. The overall purpose of this review will be to monitor the cost and
    progress of the 2010 Census field operations and verify the accuracy and integrity of the
    payroll—with emphasis placed on identifying irregular operations, assessing management
    staffing and deployment decisions, and identifying fraud.

•   Early 2020 Planning: Planning for the 2020 Census has already started, and we intend to
    track progress throughout the decade. Weaknesses in the bureau’s cost estimating techniques
    and its failure in planning and managing the acquisition of handheld computers for field data
    collection were major contributors to the eventual cost overruns and high level of operational
    risk. A related factor was the misalignment of budgets, schedules, requirements, testing, and
    acquisitions leading up to the 2010 Census. We will monitor early 2020 planning to identify
    more cost-effective methods for obtaining a high-quality address file and conducting
    enumeration, and promote more effective and transparent decennial planning and budgeting.




                                                 24
